CERTIFICATE OF SERVICE
NO. 20-523
Clarence Matthew Otworth
Petitioner
v.
PNC Bank
Respondent
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the PNC
BANK BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following address:
Clarence Otworth
187 East Daniels Road
Twin Lake, MI 49457

Lucas DeDeus

November 19, 2020
SCP Tracking: Rogers-101 South Fifth Street, Ste. 2500-Cover Orange

